                                                                         EMPLOYMENT AND TRAINING

U.S. Department of Labor                                                 ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         NAVAJO NATION DID NOT ADEQUATELY
                                                                         MANAGE WORKFORCE INVESTMENT ACT
                                                                         GRANTS AND COULD SERVE MORE
                                                                         PARTICIPANTS WITH AVAILABLE FUNDS




                                                                                            Date Issued:   September 30, 2013
                                                                                         Report Number:      02-13-202-03-355
U.S. Department of Labor                                   September 2013
Office of Inspector General
Office of Audit                                            NAVAJO NATION DID NOT ADEQUATELY
                                                           MANAGE WORKFORCE INVESTMENT ACT
                                                           GRANTS AND COULD SERVE MORE
BRIEFLY…                                                   PARTICIPANTS WITH AVAILABLE FUNDS

Highlights of Report Number 02-13-202-03-355, issued       WHAT OIG FOUND
to the Acting Assistant Secretary for Employment and       NDWD did not properly manage $16.5 million, and did
Training.                                                  not always accurately report participant activities or
                                                           meet targets. NDWD did not properly allocate and
                                                           expend $8 million of grant funds. Furthermore, unspent
WHY READ THE REPORT
                                                           grant funds totaled $13.4 million, of which $8.5 million
                                                           exceeded the maximum allowable amount to be carried
Section 166 of the Workforce Investment Act (WIA) of
                                                           over. Despite these excess funds, NDWD only served
1998 (PL 105-220) authorizes Congress to provide
                                                           62 percent of its planned number of adults, had waiting
funds for the Indian and Native American Program
                                                           lists of prospective participants, and had policies that
(INAP). INAP-funded grants serve the workforce
                                                           limited re-enrollment for participants that may have
development needs of Indian and Native American
                                                           needed additional services.
youth and adults. Eligible recipients are Indian tribes,
tribal organizations, Alaska Native entities, and
                                                           ETA’s Division of Indian and Native American Programs
Indian-controlled organizations serving Indians or
                                                           (DINAP) issued a monitoring report on NDWD grants. In
Native Hawaiians.
                                                           the monitoring report, DINAP cited issues similar to
                                                           those in this report. However, DINAP did not follow up
In Program Years (PYs) 2010 and 2011, the Navajo
                                                           on its recommendations and its own policy to review
Nation, the largest reservation in the United States,
                                                           and address corrective action items.
received $24.3 million from the Department of Labor’s
Employment and Training Administration (ETA). These
                                                           Finally, we observed that the large amount of carryover
funds included $17.5 million INAP grants and
                                                           funds was not unique to NDWD. Approximately
$6.8 million in WIA state formula funds from Arizona,
                                                           one-third of all INAP grantees carried over a total of
New Mexico, and Utah. Navajo Nation proposed using
                                                           $2.7 million more than WIA regulations allowed. ETA
the funds to provide education, training, and
                                                           was aware of the large amount of unspent funds
employment services to 3,700 adults and 2,250 youth.
                                                           remaining at the end of each program year; however, it
The Navajo Department of Workforce Development
                                                           had yet to develop a policy to recapture and reallocate
(NDWD) administers INAP funds on behalf of the
                                                           excess carryover funds.
Navajo Nation.
                                                           WHAT OIG RECOMMENDED
WHY OIG CONDUCTED THE AUDIT                                The OIG recommended the Acting Assistant Secretary
                                                           for Employment and Training require NDWD to
Our audit objective was to answer the following            implement accounting policies and procedures for
question:                                                  allocating costs and train staff on accurate data
                                                           reporting and participant follow-up. We also
Did NDWD properly expend grant funds and achieve           recommended ETA recover questioned costs of
program targets in accordance with federal and grant       $8 million or obtain appropriate support; develop a
requirements?                                              policy for recapture and reallocation of excess carryover
                                                           funds; and ensure appropriate follow-up is performed
READ THE FULL REPORT                                       after on-site monitoring reviews.
To view the report, including the scope, methodology,
and full agency response, go to:                           ETA concurred with all recommendations except for the
http://www.oig.dol.gov/public/reports/oa/2013/02-13­       recommendation that ETA ensure NDWD train staff on
202-03-355.pdf.                                            data reporting and participant follow up. ETA stated that
                                                           NDWD’s performance reports were accurate and
                                                           contended that tracking participants after exit presents
                                                           a challenge to grantees. NDWD stated that it will
                                                           coordinate with Navajo Nation's Office of the Controller
                                                           (NNOOC) the recommendations on accounting policies
                                                           and procedures, and the allocation of personnel costs
                                                           and issues related to the majority of the report’s
                                                           questioned non-personnel costs.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
                                    Report No. 02-13-202-03-355
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief.............................................................................................................. 2


Objective — Did NDWD properly expend grant funds and achieve program targets

in accordance with federal and grant requirements? ................................................ 4

         NDWD did not properly manage $16.5 million in grant funds, and did not

           always accurately report participant activities or meet targets.

           Moreover, additional participants could have been served with 

           available funds. ............................................................................................... 4


         Finding 1 — NDWD did not properly manage $8 million in INAP grant

            funds ............................................................................................................... 4

         Finding 2 — Despite excess carryover funds of $8.5 million, prospective 

            participants are waiting for employment and training services. ....................... 9

         Finding 3 — NDWD did not achieve some performance goals and

            provided minimal follow-up after participants left the program. ..................... 11

         Finding 4 — ETA did not follow its monitoring procedures to review and 

            address corrective action items..................................................................... 15


Recommendations ...................................................................................................... 16


Exhibit
         Exhibit Questioned Costs by Grants................................................................... 21


Appendices
         Appendix A Background ..................................................................................... 25

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 27

         Appendix C Acronyms and Abbreviations .......................................................... 31

         Appendix D ETA Response to Draft Report ....................................................... 33

         Appendix E NDWD Response to Draft Report.................................................... 35

         Appendix F Acknowledgements ......................................................................... 43





                                                                                  Navajo Nation Workforce Development
                                                                                          Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
                                    Report No. 02-13-202-03-355
                                          U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 30, 2013

                        Assistant Inspector General’s Report



Mr. Eric M. Seleznow
Acting Assistant Secretary
 for Employment and Training
200 Constitution Avenue,
N.W. Washington, DC 20210

Section 166 of the Workforce Investment Act (WIA) of 1998 (PL 105-220) authorizes
Congress to provide funds for the Indian and Native American Program (INAP).
INAP-funded grants serve the workforce development needs of Indian and Native
American youth and adults. The purpose of INAP grants is to fully develop academic,
occupational, and literacy skills of eligible participants; make participants more
competitive in the workforce; and promote economic and social development of Native
American communities. For Program Years (PY) 2010 and 2011, the Navajo Nation, the
largest INAP grant recipient, received $24.3 million consisting of $17.5 million WIA
Section 166 funds, and $6.8 million WIA funds provided by Utah, New Mexico, and
Arizona. The Navajo Department of Workforce Development (NDWD) administers INAP
grant funds on behalf of the Navajo Nation.

We conducted an audit to answer the following question:

      Did NDWD properly expend grant funds and achieve program targets in
      accordance with federal and grant requirements?

The audit scope covered PYs 2010 and 2011 WIA grants awarded to the Navajo
Nation. PYs 2010 and 2011 covered the periods July 1, 2010, to June 30, 2012, for the
adult program, and April 1, 2010, to March 31, 2012, for the youth program. Our audit
included expenditures of $25.2 million and 4,523 participants served.

We performed field work at ETA headquarters in Washington, DC, and at NDWD
administrative headquarters and 2 local workforce centers. A combination of random
and judgmental sampling was used to select and test 295 non-personnel transactions of
$1.7 million, and judgmental sampling was used to select and test personnel
transactions of $3.0 million from NDWD’s total claimed expenditures of $25.2 million.
Additionally, to determine services received and performance outcomes, we reviewed a
statistical sample of 61 of 1,916, and 62 of 2,607 participants from the adult and youth
programs, respectively. In addition, we requested unemployment insurance and wage


                                                              Navajo Nation Workforce Development
                                            1                         Report No. 02-13-202-03-355
                                           U.S. Department of Labor – Office of Inspector General



record data from Utah, New Mexico, Arizona, and Colorado to verify employment
outcomes.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

RESULTS IN BRIEF

NDWD did not properly manage $16.5 million, and did not always accurately report
participant activities or meet targets. Moreover, additional participants could have been
served with available funds. NDWD did not properly allocate and expend $8 million of
grant funds, and did not use at least another $8.5 million of grant funds to effectively
serve its participants. We also found that NDWD did not meet targets for serving adult
participants and youth high school dropouts, and fell short in improving their academic
skills.

NDWD did not properly allocate and expend $8 million of grant funds consisting of
$6.7 million of personnel and $1.3 million of non-personnel costs. NDWD could not
show that personnel costs of $6.7 million were based on active participants, personnel
activity reports, or an approved substitute system, as required by OMB Circular A-87.
Additionally, we questioned non-personnel costs totaling $1.3 million due to other
unallowable expenditures.

Further, NDWD did not use all available grant funds to effectively serve its participants.
As of the end of PY 2011, unspent grant funds totaled $13.4 million, of which
$8.5 million exceeded the maximum allowable amount to be carried over into the
following year. The Code of Federal Regulations 20 CFR 668.296(d) states that ETA
may reallocate unspent funds in excess of 20 percent of the total funds available from
one INAP grantee to another. Grantees may carry in amounts greater than 20 percent
but less than 25 percent of total funds available if ETA’s Division of Indian and Native
American Programs (DINAP) approves and issues a waiver. Despite these excess
funds, NDWD only served 62 percent of its planned number of adults, had waiting lists
of prospective participants, and had policies that limited re-enrollment for participants
that may have needed additional services.

We also found that NDWD did not meet targets for serving high school dropouts in the
youth program and fell short in improving academic skills of this group. Moreover,
NDWD did not always accurately report participant activities. As a result, NDWD
officials did not have accurate data on program services and outcomes, and risked
making program decisions based on that inaccurate data.




                                                          Navajo Nation Workforce Development
                                             2                    Report No. 02-13-202-03-355
                                           U.S. Department of Labor – Office of Inspector General



In December 2011, DINAP issued a monitoring report on NDWD grants. In the
monitoring report, DINAP cited issues similar to those in this report regarding personnel,
carryover funds, performance reporting, and participant follow-up. However, DINAP did
not follow-up on its recommendations and its policy to review and address corrective
action items.

Finally, we also observed that the large amount of carryover funds was not unique to
NDWD. ETA awarded funds to 125 other Native American grantees. In PY 2011,
approximately one-third of these grantees carried over a total of $2.7 million more than
WIA regulations allowed. ETA was aware of the large amount of unspent funds
remaining at the end of each program year; however, it had yet to develop a policy to
recapture and reallocate excess carryover funds. Instead, ETA asked grantees to
voluntarily return unspent funds of which only one grantee complied.

We recommended the Acting Assistant Secretary for Employment and Training require
NDWD to implement accounting policies and procedures to properly allocate personnel
and non-personnel costs, and conduct training with staff on accurate data reporting and
participant follow-up procedures. We also recommended the Acting Assistant Secretary
for Employment and Training recover questioned costs of $8 million or obtain
appropriate support, develop a policy for recapture and reallocation of excess carryover
funds for INAP grants, and ensure appropriate follow- up is performed to resolve
findings and corrective actions after on-site monitoring reviews.

ETA’s RESPONSE

In response to the draft report, ETA concurred with all recommendations with the
exception of OIG’s recommendation that ETA require NDWD train staff on accurate
data reporting, and participant follow-up procedures. Based on quarterly program
reports, ETA determined that NDWD’s outcome data is accurate. Furthermore, due to
limited staffing and resources, ETA contended that tracking participants after exit often
presents a challenge to grantees. Regarding the recommendation that ETA require
NDWD to implement accounting policies and procedures for allocating personnel and
non-personnel costs, ETA will assess if the findings are correct and verify that NDWD
finalizes and implements its NNOOC policy manual. ETA’s response is included in its
entirely as Appendix D.

NDWD’S RESPONSE

In response to the draft report, NDWD stated that it will coordinate with Navajo Nation's
Office of the Controller (NNOOC) for accounting policy related to the allocation of
personnel costs and issues related to the majority of the report’s questioned
non-personnel costs. NDWD did not agree that it had improperly classified $224,277 of
information technology costs as capital equipment that required ETA approval.
Regarding carryover funds, NDWD stated that it has communicated with DINAP the
need to expedite WIA funding and will consult with the Federal Projects Officer on this
reoccurring problem. Finally, NDWD stated it can address the participant follow-up

                                                          Navajo Nation Workforce Development
                                            3                     Report No. 02-13-202-03-355
                                                       U.S. Department of Labor – Office of Inspector General



requirements and has already addressed the data reliability issue when it centralized all
NDWD program records and data-entry in January 2011. NDWD’s response, exclusive
of the response exhibits, is included in its entirety as Appendix E. The complete
response, including the exhibits, has been transmitted to ETA.

OIG’s Conclusion

We recognize that tracking participants after exit often presents a challenge to grantees.
However, we maintain that participant follow-up is needed to ensure participants receive
help to be more competitive in the workforce. Furthermore, we continue to question the
accuracy of data reported by NDWD regarding program services and outcomes data.
Without accurate data program services and outcomes, NDWD risked making program
decisions based on inaccurate data. Regarding the classification of information
technology costs, NDWD’s response to the draft report included support for costs
incurred after our audit period.

RESULTS AND FINDINGS

Objective — Did NDWD properly expend grant funds and achieve program targets
             in accordance with federal and grant requirements?

          NDWD did not properly manage $16.5 million in grant funds, and did not always
          accurately report participant activities or meet targets. Moreover, additional
          participants could have been served with available funds.

NDWD did not properly allocate and expend $8 million of grant funds, and did not use at
least another $8.5 million of grant funds to effectively serve its participants. We also
found that NDWD did not always accurately report participant activities, did not meet
grants goals for serving adult participants and youth high school dropouts, and fell short
in improving academic skills. NDWD did not fully comply with federal regulations and
grant agreements because it did not have adequate financial and performance
management systems for managing INAP grants. Furthermore, DINAP was aware of
many of the issues cited in this report but had not ensured actions were taken to
address these problems.

Finding 1 — NDWD did not properly manage $8 million in INAP grant funds

NDWD did not properly allocate and expend $8 million of grant funds consisting of
approximately $6.7 million of personnel and $1.3 million of non-personnel costs (see the
Exhibit to this report for a Schedule of Questioned Costs by Grant). This was due to
inadequate controls and failure to implement an accounting manual that followed
federal requirements. NDWD could not show that personnel costs totaling $6.7 million
                                                                                   1
were based on the number of active quarterly participants recorded in BearTracks and
reported to ETA; as NDWD officials claimed. Moreover, personnel activity reports or an

1
    BearTracks is a Management Information System ETA developed to manage and report participant information.

                                                                        Navajo Nation Workforce Development
                                                         4                      Report No. 02-13-202-03-355
                                                        U.S. Department of Labor – Office of Inspector General



approved substitute system to allocate personnel costs to various funding sources or
cost categories were not used. Additionally, we questioned non-personnel costs totaling
$1.3 million due to other unallowable expenditures that included unsupported transfers,
unapproved capital improvements, unallocable costs, and applicable indirect costs.

A.	 NDWD did not have adequate controls in place to properly allocate
    personnel costs of $6,676,572.

NDWD reported personnel costs of $6,676,572 ($4,747,108 of salaries and $1,929,464
of fringe benefits) to WIA grant programs. NDWD administered two federal programs –
(1) INAP funded by DOL; and (2) Native Employment Works (NEW), funded by the
Department of Health and Human Services (HHS). NDWD officials stated that they
allocated personnel costs based on the number of participants served. However, we
found that personnel costs were not allocated to cost categories based on the quarterly
number of participants recorded in BearTracks and reported to ETA. Moreover,
personnel activity reports or an approved substitute system, 2 were not used to allocate
personnel costs to various federal funding sources or cost categories as required by
OMB. Based on NDWD’s unapproved allocation method, we questioned personnel
costs of $6,676,572 allocated to WIA programs as the costs incurred did not accurately
reflect actual work employees performed.

OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments
Attachment B (8) (h) (OMB A-87) states:

           (4) Where employees work on multiple activities or cost objectives, a
           distribution of their salaries or wages will be supported by personnel
           activity reports or equivalent documentation…unless a statistical sampling
           system…or other substitute system has been approved by the cognizant
           Federal agency… (5) Personnel activity reports or equivalent
           documentation must meet the following standards: (a) They must reflect
           an after-the-fact distribution of the actual activity of each employee…

Table 1 shows a summary of questioned personnel costs:

              Table 1: Summary of Questioned Personnel Costs
              Description	                                                         Questioned Costs
              Improperly charged NEW personnel costs to WIA grants                          $395,685
              Administrative personnel costs improperly charged to training                  775,729
              Personnel costs improperly charged to a single cost category                 1,840,433
              Approved method of allocating personnel costs was not used                   3,664,725
              TOTAL	                                                                       6,676,572




2
    The U.S. Department of Interior, the Federal cognizant agency, had not approved NDWD’s method at the time of our
     fieldwork.

                                                                          Navajo Nation Workforce Development
                                                          5                       Report No. 02-13-202-03-355
                                                         U.S. Department of Labor – Office of Inspector General



NDWD improperly charged NEW program personnel costs to WIA grants.

NDWD used $395,685 of WIA funds to pay personnel costs of staff working on the NEW
program. Based on the number of active quarterly participants in each of NDWD’s
programs, 3 we calculated the NEW program’s share of personnel costs was
approximately 10.25 percent of total personnel or $735,336. 4 However, NDWD only
allocated $494,669 (6.9 percent) to the NEW program. Therefore, we questioned the
difference of $240,667 ($172,649 salaries and $68,018 fringe benefits). Furthermore,
OIG interviews and review of personnel files showed that two employees were primarily
responsible for the NEW program, but NDWD allocated $155,018 ($107,602 salaries
and $47,416 fringe benefits) for their personnel costs to WIA grants.

NDWD improperly charged administrative personnel costs to training.

NDWD allocated administrative personnel costs of $775,729 to training support and
direct training even though a significant portion of the employees’ duties involved
administrative activities. 5 The employees included: accounts maintenance specialists
who maintained timesheets, checked for accuracy of timekeeping, processed travel,
and made office purchases; and program supervisors who recruited and hired
employees, managed personnel, and administered budgets. 20 CFR 667.220 (b) states:

         The costs of administration are the costs associated with performing the
         following functions: (1) Performing the following overall general
         administrative functions and coordination of those functions under WIA
         title I: (i) Accounting, budgeting, financial and cash management functions;
         (ii) Procurement and purchasing functions;… (iv) Personnel management
         functions; (v) Payroll functions…

NDWD improperly charged personnel costs to a single cost category.

NDWD allocated personnel costs totaling of $1,840,433 to a single cost category, either
administrative or training support services, even though employees duties involved work
applicable to both cost categories. The employees worked in the following positions:
office specialist; statistical technician; senior management analyst; office assistant; case
assistant; contract analyst; senior accountant; and maintenance technician.

NDWD did not use an approved method of allocating personnel costs.

NDWD charged $3,664,725 of personnel costs for the positions of employment
assistance officer, GIS counselor, senior property clerk, office aide, and senior

3
  The audit covered PYs 2010 and 2011 which included July 1, 2010, to June 30, 2012, for the adult program, and
   April 1, 2010, to March 31, 2012, for the youth program. The NEW program started July 1, 2010.
4
  Total personnel costs for the audit period was $7,171,241 consisting of personnel costs allocated by NDWD to WIA
   of $6,676,572 and NEW of $494,669.
5
  The grant imposes a 20 percent administrative cost limit. ETA will need to determine if this limit has been exceeded
   when the grant is ultimately closed.

                                                                           Navajo Nation Workforce Development
                                                           6                       Report No. 02-13-202-03-355
                                          U.S. Department of Labor – Office of Inspector General



accountant to either the training support or administrative category. However, the
allocations of the costs were not based on either personnel activity reports, an approved
substitute allocation system, or NDWD’s stated allocation method. As a result, the
amounts allocated to NEW, and WIA Adult and Youth programs, could not be validated.

B.	 NDWD did not have controls in place to properly allocate and charge
    non- personnel costs of $1,295,986.

NDWD improperly allocated non-personnel costs between the WIA and NEW programs.
Additionally, NDWD did not provide supporting documentation for certain financial
transactions, classified capital improvement costs as common expenditures, and paid
prior period expenses in the current grant period, including late fees. This occurred
because NDWD did not have adequate controls in place to properly allocate costs, and
has not implemented its accounting manual.

In addition, we questioned indirect costs applicable to improper personnel and
non- personnel costs. A summary of questioned non-personnel costs is shown in
Table 2.

         Table 2: Summary of Questioned Non-Personnel Costs
         Expenditure	                                              Questioned Costs
         Unsupported Adjusting Journal Entries                               380,722
         Capital Improvements                                                224,277
         NEW Program Expenditures                                            127,627
         Prior Period Expenses and Late Fees Paid                             23,661
         Indirect Costs Applicable to Questioned Cost                        539,699
         TOTAL	                                                            1,295,986

NDWD did not provide sufficient support for adjusting journal entries totaling
$380,722.

NDWD did not provide sufficient support for 6 transactions related to journal entries
totaling $380,722. These entries averaged $63,454 and were as high as $149,652.
OMB Circular A-87, Attachment A, Section (A)(C)(1)(j), requires that to be allowable
under federal awards, costs must be adequately documented.

NDWD could not explain how it calculated the journal entry amounts, the grant entries
they related to, or the nature of the expenditures. The Navajo Nation Office of the
Comptroller (NNOOC) Policy Manual required financial staff to process and enter all
journal entries equal to or more than $50,000, into the Financial Management
Information Systems using specific guidelines. These guidelines included a requirement
that supporting documentation be attached to substantiate the journal entries, along
with signatures from approving officials including the Department Manager. However,
according to a NDWD official, the NNOOC Policy Manual was only a draft and never
implemented or approved.



                                                         Navajo Nation Workforce Development
                                            7                    Report No. 02-13-202-03-355
                                                         U.S. Department of Labor – Office of Inspector General



NDWD did not obtain ETA approval for capital improvements of $224,277.

NDWD made numerous capital improvement acquisitions for the development of a
web-based document tracking system and computer equipment, which substantially
increased the value and useful life of the information technology infrastructure.
However, NDWD did not obtain ETA approval prior to making these purchases. NDWD
did not classify these items as capital improvements which required prior authorization
from ETA. As a result, we questioned costs of $224,277. OMB A-87, Attachment B,
subsection (15)a.(1) states:

           Capital Expenditures” means expenditures for the acquisition cost of
           capital assets (equipment, buildings, land), or expenditures to make
           improvements to capital assets that materially increase their value or
           useful life…. b. The following rules of allowability shall apply to equipment
           and other capital expenditures: (1) Capital expenditures for general
           purpose equipment, buildings, and land are unallowable as direct charges,
           except where approved in advance by the awarding agency.

NDWD improperly charged NEW program expenditures of $127,627 to WIA.

NDWD did not have an adequate system to allocate shared costs between WIA
and NEW programs. As a result, we questioned costs of $127,627 related to the
NEW program. OMB Circular A-87, Attachment A, Section (C)(3)(a), states:

           A cost is allocable to a particular cost objective if the goods or services
           involved are chargeable or assignable to such costs objective in
           accordance with relative benefits received.

NDWD did not allocate costs that involved both NEW and WIA programs. These
allocation issues included costs such as: travel, utilities, supplies, and technology which
benefitted both the WIA and NEW programs. Therefore, we questioned 10.25 percent 6
of all administrative costs, travel, and technology contracts (not previously questioned)
of $957,317, or $98,125, plus actual travel expenditures incurred by NEW program
personal charged to WIA of $11,765, and $17,737 for a computer training contract
shared by both programs, for a total of $127,627.

NDWD improperly used PYs 2010 and 2011 funds to pay prior period expenses
and associated late fees of $23,661.

WIA grant funds were used to pay internet services and associated late costs that were
incurred in Calendar Year 2006 and 2007. According to NDWD management internet
invoices were sent to an area office, and as a result, management was not aware of the
expense. However, the draft NNOOC Policy Manual does not include practices for
identifying unallowable costs or appropriately reference OMB Circular A-87, and NDWD

6
    The 10.25 percent was based on the number of active quarterly participants in the NEW program.

                                                                          Navajo Nation Workforce Development
                                                          8                       Report No. 02-13-202-03-355
                                                        U.S. Department of Labor – Office of Inspector General



management review of invoices did not capture and properly exclude late charges. As a
result, we questioned costs of $23,661. OMB Circular A-87, Attachment A, Section
C.3.a states, “A cost is allocable to a particular cost objective if the goods or services
involved are chargeable or assignable to such cost objective in accordance with relative
benefits received.”

Questioned indirect costs applicable to personnel and non-personnel costs
totaled $539,699.

Indirect costs are costs incurred for a common purpose benefiting more than one cost
objective, and not readily assignable to final cost objectives. We questioned indirect
costs of $539,699 which resulted from the application of the 7.99 percent 7 to base
questioned cost of $6,754,680. 8

Finding 2 — Despite excess carryover funds of $8.5 million, prospective
             participants are waiting for employment and training services.

NDWD did not use available grant funds to effectively serve its participants. NDWD’s
practice of not using available funds to serve participants has been persistent. As of
PY ending 2011, carryover funds were approximately equivalent to one year’s worth of
WIA funding at $13.4 million. Despite these unused funds, NDWD only served
62 percent of the planned number of adults, had waiting lists of prospective participants,
and had policies that limited re-enrollment for participants that may have needed
additional services. Moreover, ETA contributed to NDWD’s excess carryover by not
using its authority to reallocate excess funds to other grantees. As a result, of
$13.4 million in unspent grant funds, NDWD exceeded the maximum allowable
carryover limit by $8.5 million.

20 CFR 668.296(d) states ETA may reallocate unspent funds in excess of 20 percent of
the total funds available from one INAP grantee to another. Grantees may carry in
amounts greater than 20 percent, but less than 25 percent of total funds available if
DINAP approves and issues a waiver to them. Furthermore, ETA issued guidance as
early as April 2008, stating that given the employment and training needs among Native
Americans, it expected unspent funds to be minimal at the end of the PY 2007.
Additionally, ETA informed INAP grantees it would recapture those carryover funds in
excess of the 20 percent limit and re-distribute them to grantees under the carryover
limit.

NDWD has consistently exceeded its carryover limit since PY 2008.

NDWD’s practice of not using available funds to serve participants has been persistent.
From PYs 2008 through 2011, carryover funds have been as high as $14.3 million,

7
  NDWD charged indirect costs averaging 7.99 percent applied to total direct cost less capital expenditures and pass-
through funds of $9,142,003 for PYs 2010 and 2011.
8
  Base questioned costs of $6,754,680 are total questioned cost of $7,432,674 less capital expenditures and pass-
through funds of $677,994.

                                                                          Navajo Nation Workforce Development
                                                          9                       Report No. 02-13-202-03-355
                                                       U.S. Department of Labor – Office of Inspector General



while excess grant funds were between $7.1 million and $9.3 million annually.
Carryover funds, as of PY ending 2011, were approximately equivalent to one year’s
worth of WIA funding at $13.4 million. The regulations allow a maximum of 20 percent,
or $4.9 million, to be carried over into the following year, but NDWD exceeded that limit
by $8.5 million. Table 3 shows NDWD’s carryover since PY 2008.

Table 3: Four Year Carry-Over Summary 9
            Beginning
            Carry Over    New WIA                                                    20 percent      Excess
             Balance       Funding      Expenditures   Total Funds   Carry Over      allowable     Carryover
PY              [A]          [B]             [C]       [A]+[B]=[D]   [D]-[C]=[E]    [D*20%]=[F]    [E]-[F]=[G]
2008                N/A   $12,400,757       $629,805   $12,400,757     11,770,952      2,480,151      9,290,801
2009        11,770,952     19,106,010     16,528,466    30,876,962     14,348,496      6,175,392      8,173,104
2010        14,348,496     12,198,626     14,180,314    26,547,122     12,366,808      5,309,424      7,057,384
2011        12,366,808     12,091,324     11,021,388    24,458,132     13,436,744      4,891,626      8,545,118
AVERAGES    12,828,752    $13,949,179    $10,589,993   $23,570,743   $12,980,750      $4,714,149     $8,266,601


While NDWD officials stated the main cause of carryover was ETA’s delays in making
funds available, we concluded this only had minimal impact. NDWD has consistently
exceeded its carryover limit since PY ending 2008. We found ETA made funds available
an average of 2.8 months after the grant award date. However, NDWD spent the funds
an average of 15.3 months after the end of the year in which they were awarded.

Prospective participants were waiting for employment and training services.

Despite these excess funds for PYs 2010 and 2011, NDWD only served 2,293 of the
3,700 (62 percent) planned number of adults, had waiting lists of prospective
participants, and had policies that limited re-enrollment for participants that may have
needed additional services. NDWD policy prohibited participants from re-enrolling into
the Adult or Youth program if they had been awarded a training certificate, diploma, or
degree. In most cases, this policy prevented participants from re-enrolling into the
program even if they may have benefited from additional services.

NDWD had five local workforce centers to serve area residents; we visited two,
Shiprock and Fort Defiance. NDWD limited these centers on the number of participants
they could serve. Each center’s budget specified the number of adult and youth
participants they could have served under work experience (WEX), classroom training,
and supportive services. Moreover, these centers had eligible applicants waiting for
services and some that had not submitted all documentation for eligibility. According to
staff in Shiprock, there were approximately 200 to 300 applicants waiting for services. In
Fort Defiance, each Employment Assistance Officer (EAO) maintained his or her waiting
list. From our interviews with two EAOs, one had 66 participants and another had 100
participants on the waiting list.



9
  Amounts represented are applicable only to grants AB171750855A and AB216091155A. Since this was the
inception year of the grant there is no carryover beginning balance.

                                                                      Navajo Nation Workforce Development
                                                        10                    Report No. 02-13-202-03-355
                                           U.S. Department of Labor – Office of Inspector General



ETA has yet to develop a policy to recapture and reallocate excess carryover
funds.

We also observed that the large amount of carryover funds was not unique to NDWD.
ETA awarded funds to 125 other Native American grantees. In PY 2011, approximately
one-third of these grantees carried over a total of $2.7 million more than WIA
regulations allow. ETA was aware of the large amount of unspent funds remaining at
the end of each program year. However, ETA had not reallocated these funds; instead
ETA asked grantees to voluntarily return unspent funds which only happened once.

Finding 3 — NDWD did not achieve some performance goals and provided
             minimal follow-up after participants left the program.

NDWD reported serving only 62 percent of its planned number of adults, did not meet
grants goals for serving high school dropouts in the youth program, and fell short in
improving academic skills of this group. Moreover, NDWD did not accurately report
participant activities. This was because NDWD limited enrollment, did not properly enter
and verify information in BearTracks, and did not always adhere to its policy requiring
follow-up with exiters to determine if they entered employment or needed additional
services. As a result, NDWD officials did not have accurate data on program services
and outcomes, and risked making program decisions based on that inaccurate data.

NDWD designed its program to provide work experience, occupational skills training,
and academic remediation to prepare participants for careers in sectors with high
demand job opportunities. NDWD training services consisted of WEX, occupational
skills (classroom training), and basic skills to both adult and youth participants. Of the
123 sampled adult and youth participants, 118 participants or 96 percent had WEX or
classroom training in one of the demand sectors - goods and services, hospitality,
health care, government services, aging and long term elder care, gaming, green jobs,
food service, and construction. Because the Navajo Nation is the largest employer on
the Reservation, a majority of WEX and post-exit job placements were in government
services. Participants worked in positions such as office aide and assistant, custodian
assistant, maintenance helper, automotive industry expert, and kitchen aide.

NDWD did not achieve adult enrollment goals but evidence suggests it exceeded
employment goals.

NDWD did not meet its enrollment goals in the adult program, but evidence supported
that it exceeded its employment goals even though employment results were not
accurately reported to ETA, and retention goals in the grant were not correct.

In PYs 2010 and 2011, NDWD planned to serve 3,700 adult participants (1,850 each
year), but reported serving only 2,293. As discussed earlier in Finding 2, NDWD had
excess funds available to serve more adult participants, but did not. Rather, NDWD
management limited the number of training slots for each local workforce center,
resulting in waiting lists of eligible applicants.

                                                          Navajo Nation Workforce Development
                                            11                    Report No. 02-13-202-03-355
                                                          U.S. Department of Labor – Office of Inspector General




NDWD’s planned entered employment rate was 32 percent for both years based on an
estimated 225 participants per year entering employment. NDWD’s proposed retention
rate was 50 percent for both years based on 350 participants that enter employment
and retain their jobs for at least 6 months. 10 NDWD’s recorded employment data in
BearTracks and reported to ETA 152 participants (15 percent of the 987 exiters) in PY
2010 and 141 participants (19 percent of 751 exiters) in PY 2011 entered employment.

However, evidence existed supporting that employment statistics were underreported.
We performed a statistical sample and estimated that the entered employment may
have been understated by at least 177 participants per year. 11 Furthermore, ETA stated
that NDWD’s entered employment was as high as 479 participants for PY 2010 and
374 participants for PY 2011; and that 55 percent of those that entered employment
retained their jobs for at least 6 months at an annual income of $20,164 for PY 2010
and $19,102 for PY 2011. ETA calculated employment rates using the Kansas
Department of Commerce’s Common Reporting Information System (CRIS). CRIS
calculates these rates based on information from state Unemployment Insurance (UI)
wage data, the Federal Employment Data Exchange System, and supplemental grantee
data. However, this data did not contain detail that would enable OIG to verify. While
ETA guidance states it will calculate employment performance measures on behalf of
grantees, it requires grantees to submit performance outcomes for data they collect.
See Table 4 for a summary of NDWD’s planned vs. actual goals for PYs 2010 and 2011.

     Table 4: Planned and Actual Goals for Adult Program
                                               PY 2010                                       PY 2011
                                     Planned        ETA   CRIS                    Planned        ETA           CRIS
     Goal                                     (Reported)                                    (Reported)
             12
     Served                              1,850     1,249      -                       1,850     1,044              -
     Exiters                               700       987  1,041                         700       751            815
     Entered Employment Rate              32%       15%    46%                         32%       19%            46%
     No. Entered Employment                225       152    479                         225       141            374
                     13
     Retention Rate                       50%       43%    51%                         50%       56%            58%
                  14
     No. Retained                          350        65    240                         350        79            280
     Average Annual Earnings            20,000    17,650 20,164                      20,000    20,294         19,102




10
   The proposed 350 participants that retained employment is an error since the number of participants retained
cannot exceed the proposed number of participants that entered employment (225) as shown in Table 4.
11
   A statistical sample showed that the reported entered employment may be understated by at least 177 participants
per year with a confidence level of 90 percent.
12
   The planned number of participants served of 3,700 (1,850 per year) included 600 participants carried over from
the previous program year. Therefore, the planned number of individuals served was 3,100 and the actual individuals
served were 1,916.
13
   Employment retention rate is based on participants who have been out of the program for at least nine months.
ETA guidance states that a person counts as “retained employment” if they are working the first quarter after the exit
quarter and still working in the second and third quarter after exit. As a result, ETA uses different groups to calculate
the entered employment and retention rates.
14
   According to ETA, the proposed numbers are incorrect because the number of employees that retain employment
exceeded the number of participants to enter employment.

                                                                            Navajo Nation Workforce Development
                                                           12                       Report No. 02-13-202-03-355
                                                            U.S. Department of Labor – Office of Inspector General



NDWD did not achieve some youth program performance goals.

NDWD met its overall enrollment goals for serving total number of youth participants,
but in PY 2011, served approximately half of its planned high school dropouts.
Additionally, in PY 2011, NDWD failed to meet its educational attainment for its dropout
goal.

For the Youth program, NDWD’s planned enrollment was 2,250 (1,150 for PY2010 and
1,100 for PY 2011), and it actually enrolled 2,276. However, in PY 2011, NDWD
planned to serve 150 high school dropouts, but reported it enrolled only 76. NDWD did
not explain why they failed to meet this target. Table 5 shows proposed and actual goals
for the youth program.

       Table 5: Proposed and Actual Goals for Youth Program
                                                PY 2010                                           PY 2011
                                                       Reported                                         Reported
     Goal                               Proposed                                             Proposed
                                                         to ETA                                           to ETA
     Served*                                  1,150       1,122                                1,100      1,154
     Exiters                                     -          770                                  900       846
     Youth Dropouts                               -         123                                  150        76
     Attainment of 2 or more goals**            805         637                                    5          5
     Dropout education attainment rate            -          15%                                  50%       21%
     No. Dropout education attainment             -          19                                   75         16
      *	 Does not include 331 participants served under the American Recovery and Reinvestment Act of 2009, since they
            were reported separately.
      ** Prior to PY 2011, this goal is for number of participants served that attained 2 or more goals; however, for PY
            2011, the goals refers to grantee attaining at least a 60 percent level on two or more of its grant goals. These
            goals were in areas such as: obtain GED, remain in school, and improve basic skills by two grade levels.
      -Not a component of grant for PY 2010




Data for adult and youth programs may not be sufficiently reliable.

We attempted to verify a statistical sample of 61 adult and 62 youth participant records
with data recorded in BearTracks and reported to ETA, and concluded that reported
data was not sufficiently reliable. In addition to the employment differences previously
noted for the adult program, there were errors ranging up to 39 percent for the various
services and training provided to participants. For example, there were 33 errors
regarding adult training received: basic skills (8), remedial (6), WEX (3), occupational
skills (2), and other training (14). Of the 33 errors, 12 were because there was no
evidence that training was provided, and for 21 participants there was evidence that
training was provided, but it was not recorded in BearTracks and reported to ETA.

As a result, NDWD officials did not have accurate data on program services and
outcomes, and risked making program decisions based on inaccurate data. See Tables
6 and 7 for a summary of errors.




                                                                                Navajo Nation Workforce Development
                                                             13                         Report No. 02-13-202-03-355
                                              U.S. Department of Labor – Office of Inspector General



     Table 6: Errors in Sample Testing – Adult Program
                                                               Sample         Total    Error
     Attribute                                                  Size          Errors   Rate
     Core Services                                               61            24       39%
     Other Training                                              61            14       23%
     Basic Skills Training                                       61             8       13%
     Remedial Training                                           61             6       10%
     Intensive Services                                          61             4        7%
     Work Experience Training                                    61             3        5%
     Occupational Skills Training                                61             2        3%



     Table 7: Errors in Sample Testing - Youth Program
                                                               Sample         Total    Error
     Attribute                                                  Size          Errors   Rate
     Completed Occupational Skills Training                      62             7       11%
     Successful Completion of Summer Employment                  62             6       10%
     Completed Leadership Skills Training                        62             5        8%
     Completed Work Readiness                                    62             3        5%
     Entered Other (Non-Supplemental Youth) Training             62             2        3%
     Completed Career Assessment                                 62             2        3%
     Completed Internship/Vocational Exploration Program         62             1        2%
     Entered Unsubsidized Unemployment (include Military)        62             1        2%
     Returned to School Full Time                                62             1        2%

NDWD did not always follow-up with participants after program completion.

Program staff did not always adhere to NDWD policy requiring follow-up with exiters to
determine if they entered employment or needed additional services. NDWD policy
states the purpose of doing follow-up with adults is to help them, “be successful in
employment, job retention, wage gains and career progress,” and the purpose for youth
follow-up is to help them obtain advanced training, education or a better paying job.

In the adult program, NDWD staff followed up with just 475 of 1,738 reported exiters
(27 percent) in PYs 2010 and 2011. BearTracks recorded that for 61 sampled adult
participants, NDWD program staff contacted 13 or 21 percent in the first quarter after
the exit. However, even when staff did follow up, participants did not always receive
post-exit services as needed. For nine sampled adults that received follow-up and were
unemployed, case notes did not show that NDWD staff offered any job search or related
services.

In the Youth program, follow-up services were not tracked because the BearTracks
Youth Database had no field for follow-up services. As a result, NDWD had no way of



                                                             Navajo Nation Workforce Development
                                               14                    Report No. 02-13-202-03-355
                                             U.S. Department of Labor – Office of Inspector General



tracking whether high school dropouts obtained a GED or high school diploma after the
program; one of the performance outcomes.

Program staff at two local NDWD workforce centers stated they faced challenges in
conducting follow-up. They cited disconnected phones, lack of transportation, and a
heavy workload as reasons they did not always follow up with exiters. For youth, some
staff were not aware of NDWD’s policy to perform follow-up and stated, “It is really
impossible to do youth follow-up for a year, and there are questions about what useful
purpose it serves.”

Finding 4 — ETA did not follow its monitoring procedures to review and address
             corrective action items.

DINAP was aware of many issues cited in this report, but did not follow up to ensure
NDWD resolved the findings. In December 2011, DINAP issued a monitoring report to
NDWD on its INAP grants. In the report, DINAP cited issues similar to findings in this
audit report regarding personnel, carryover funds, performance reporting, and
participant follow-up. However, DINAP did not follow up on its recommendations and its
policy to review and address corrective action items. According to a DINAP official, at
the end of August 2012, the grant was transferred to a new Federal Project Officer
(FPO) who was working on resolution at the time of our fieldwork. DINAP officials also
cited limited resources for travel as a reason that the Division could not do more on-site
monitoring.

The monitoring report was based on an analysis of NDWD’s reported program
performance outcomes from June 2009 to September 2011, and information from two
on-site reviews. In the monitoring report, DINAP issued a finding that NDWD had a
significant amount of funds unspent at the end of each program year that could have
been used for the benefit of eligible individuals on the Reservation, particularly in light of
current negative economic conditions. DINAP required NDWD to submit a
comprehensive corrective action plan with detailed tasks it would take to obligate 80
percent of funds by the end of the program year.

DINAP’s monitoring report separately presented “observations” and “recommendations”
that NDWD should take to address other issues. They included the following three
issues identified in this audit report:

   •	 NDWD’s method of allocating personnel cost based on participants served
      was neither adequate nor approved by the Department of Labor, and the
      fallibility of the method was further supported by the fact that BearTracks
      participant information was not always correct. The report recommended that
      the NDWD implement cost allocation based on time distribution of actual job
      function of all staff with periodic review to modify any changes to staff
      functions.




                                                            Navajo Nation Workforce Development
                                              15                    Report No. 02-13-202-03-355
                                          U.S. Department of Labor – Office of Inspector General



   •	 NDWD needed to improve performance reporting and accountability. DINAP
      recommended that NDWD consider the evaluation of actual performance
      against planned goals and measures, and participant file documentation
      regarding services provided.

   •	 There was no participant follow-up at one of the local centers. DINAP stated
      that follow-up is key to documenting performance outcomes for the three
      common measures: Entered Employment, Job Retention and Average
      Earnings. The report recommended NDWD ensure required follow-up of
      participants after exit.

In its transmittal letter for the December 2011 monitoring report, DINAP directed NDWD
to send a written response within 45 days to address the required corrective action
items for the finding on unspent funds. NDWD did not respond until August 2012
(8 months after DINAP issued the report) and only addressed the findings and related
corrective action. NDWD acknowledged the report’s observations and
recommendations, as presented by DINAP’s review team. At the time of our fieldwork,
DINAP officials acknowledged that they had not taken action on NDWD’s written
response. They explained that the FPO that wrote the monitoring report had retired and
the grant was transferred to another FPO, who was not part of the review team.
However, the current FPO was working on a response.

RECOMMENDATIONS

We recommend the Acting Assistant Secretary for Employment and Training require
NDWD to:

   1. Implement accounting policies and procedures to properly allocate personnel and
      non-personnel costs. Furthermore, the NNOOC Policy Manual should be
      implemented and include practices for identifying unallowable costs.

   2. Conduct training with staff on accurate data reporting, and participant follow-up
      procedures.

We also recommend the Acting Assistant Secretary for Employment and Training:

   3. Recover questioned costs of $8 million, or obtain appropriate support.

   4. Develop a policy for recapture and reallocation of excess carryover funds for
      INAP grants.

      o	 For NDWD, ensure that all NDWD’s carryover funds are either better used to
         serve participants or recouped and redistributed. This can be accomplished
         by providing technical assistance to NDWD to serve additional eligible
         participants as appropriate or by recouping $8.5 million of excess carryover
         funds to be put to better use by other INAP grantees.

                                                         Navajo Nation Workforce Development
                                           16                    Report No. 02-13-202-03-355
                                          U.S. Department of Labor – Office of Inspector General




      o	 For other INAP grantees, evaluate the $2.7 million in excess carryover
         funds and recover funds, as appropriate. In doing so, ETA should try to
         reallocate or re-obligate funds before the period of availability expires so
         funds could be better used to assist tribes that are in need. If not, funds
         should be returned to the Treasury.

   5. Ensure appropriate follow-up is performed to resolve findings and

      corrective actions after on-site monitoring reviews.


We appreciate the cooperation and courtesy that NDWD and ETA personnel extended
to the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix F.




Elliot Lewis
Assistant Inspector
General for Audit




                                                         Navajo Nation Workforce Development
                                           17                    Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
              18                    Report No. 02-13-202-03-355
           U.S. Department of Labor – Office of Inspector General




Exhibit





                          Navajo Nation Workforce Development
            19                    Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
              20                    Report No. 02-13-202-03-355
                                     U.S. Department of Labor – Office of Inspector General



                                                                                  Exhibit
Questioned Costs by Grants



                             Audit of NDWD
                      Schedule of Questioned Costs
                         By Grants and Findings
                           PYs 2010 and 2011

                        AB-17175-08-55-A-4  AB-21609-11-55-A- 4
                               (PY 10)            (PY 11)
        FINDING          Adult        Youth   Adult     Youth                   Total
1(A)   PERSONNEL      $2,866,266 $3,020,660 $416,716 $372,930                $6,676,572
1(B)   INDIRECT
       COSTS            110,861      428,838                                     539,699
1(B)   UNSUPPORTED
       TRANSFERS         76,996      303,726                                     380,722
1(B)   CAPITAL
       IMPROVEMENT      194,277        30,000                                    224,277
1(B)   NEW PROGRAM
       ALLOCATION        84,651        31,769         2,339         8,868        127,627
1(B)   PRIOR PERIOD
       EXPENSES &
       LATE FEES          23,661                                                 23,661
        Questioned    $3,356,712   $3,814,993    $419,055 $419,055           $7,972,558
                                                    Total Questioned         $7,972,558




                                                    Navajo Nation Workforce Development
                                      21                    Report No. 02-13-202-03-355
              U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                             Navajo Nation Workforce Development
               22                    Report No. 02-13-202-03-355
              U.S. Department of Labor – Office of Inspector General




Appendices





                             Navajo Nation Workforce Development
               23                    Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
              24                    Report No. 02-13-202-03-355
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

Section 166 of the Workforce Investment Act (WIA) of 1998 (PL 105-220) authorizes
Congress to provide funds for the Indian and Native American Program (INAP).
INAP- funded grants serve the workforce development needs of Indian and Native
American youth and adults. Eligible recipients are Indian tribes, tribal organizations,
Alaska Native entities, and Indian-controlled organizations serving Indians or Native
Hawaiians. WIA Section 166 requires grantees to submit two year plans that describe
the strategy for meeting the needs of Native American Communities. The plan should
identify the education and employment needs of the population to be served, describe
the services and activities to be provided, and detail how those activities will improve a
participant’s ability to obtain or retain employment. The purpose of INAP grants is to:

   •	 Fully develop academic, occupational, and literacy skills of eligible

      participants;

   •	 Make participants more competitive in the workforce; and
   •	 Promote economic and social development of Indian, Alaska Native, and
      Native Hawaiian communities in accordance with those communities' values
      and goals.

The Navajo Nation received the largest INAP grant awards – $12.2 million and
$12.1 million for PYs 2010 and 2011, respectively. The Navajo Nation is the largest
reservation in the United States, with more than 300,000 members in 2011, covering
an area that includes parts of Arizona, Colorado, New Mexico, and Utah. The Navajo
Department of Workforce Development (NDWD) administers INAP grants awarded to
the Nation. For Program Years (PY) 2010 and 2011, the Navajo Nation, the largest
INAP grant recipient, received $24.3 million consisting of $17.5 million WIA Section
166 funds, and $6.8 million WIA funds provided by Utah, New Mexico, and Arizona.
During this period, NDWD also operated the U.S. Department of Health and Human
Services’ (HHS) Native American Employment Works (NEW) Program, funded from
$3.5 million in grants from HHS. The NEW program helps eligible participants on public
assistance obtain training and employment.

The headquarters of NDWD is located in Window Rock, Arizona and oversees five
Workforce Centers located throughout Arizona, Colorado, New Mexico, and Utah.
During PYs 2010 and 2011, NDWD spent $25.2 million serving 1.916 individual adult
and 2,607 youth participants.




                                                          Navajo Nation Workforce Development
                                            25                    Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
              26                    Report No. 02-13-202-03-355
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did NDWD properly expend grant funds and achieve program targets in accordance
with federal and grant requirements?

Scope

The audit scope covered Program Years (PY) 2010 and 2011 Workforce Investment Act
(WIA) grants awarded to the Navajo Nation. PYs 2010 and 2011 cover the periods
July 1, 2010, to June 30, 2012, for the adult program, and April 1, 2010, to
March 31, 2012, for the youth program. Total available funds during the audit period
were $38.6 million ($7 million in American Recovery and Reinvestment Act of 2009
funds). Our audit included expenditures of $25.2 million and 4,523 individuals served.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

WIA grants were reviewed to determine types of training, services, and outcomes. We
reviewed quarterly financial reports to determine reported costs, reconciled costs to
grantee’s general ledger, and reviewed supporting documentation. To evaluate
performance, we reviewed quarterly performance reports submitted to ETA to
determine services, training, and programs’ outcomes. We performed fieldwork at ETA
headquarters in Washington, DC, at NDWD administrative headquarters in Window
Rock, AZ, at two local workforce centers (Shiprock and Fort Defiance), and at the
Navajo Nation Office of the Comptroller.

We performed a data reliability assessment to ensure we had complete and accurate
grants expenditure and performance data. We reconciled grantee’s general ledger (G/L)
and performance database to the following ETA quarterly reports: Form 9130
(Financial); Form 9084 (Adult Performance); and Form 9085 (Youth Performance). To
determine whether the financial data was reliable for sampling, we compared the total
financial expenditures reported to ETA to financial expenditures per grantee’s general
ledger. We found a minor difference of less than .01 percent of total expenditures
reported to ETA. The performance data reliability assessment was conducted by

                                                        Navajo Nation Workforce Development
                                          27                    Report No. 02-13-202-03-355
                                            U.S. Department of Labor – Office of Inspector General



comparing performance data reported to ETA to the items recorded in the grantee’s
copy of the INAP’s official system of record; the BearTracks database. From the
grantees extract of BearTracks data received in January 2013, we reconciled it to ETA
Form 9085 performance reports for the Youth program as of March 31, 2012, and ETA
Form 9084 performance reports for the Adult program, as of June 30, 2012. We noted
differences of approximately one percent, which was determined to be immaterial.
Therefore, we concluded that the data provided to us was sufficiently complete for
sampling purposes. However, we noted significant differences from a statistical sample
of 61 adult and 62 youth participant records with data recorded in BearTracks and
reported to ETA, and concluded that the data may not be sufficiently reliable for
reporting purposes (see Finding 3).

In planning and performing our audit, we considered whether internal controls
significant to the audit were properly designed and placed in operation. This included
review of NDWD policies related to WIA Adult and Youth programs. We confirmed our
understanding of these controls and procedures through interviews with ETA National
and Regional Office officials, grantee officials and staff, and review of participant files.
Our consideration of these internal controls would not necessarily disclose all matters
that might be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

To gain an understanding of the financial process used by NDWD to manage WIA
grants received from ETA, we statistically selected a sample of 86 transactions totaling
$1.2 million. As part of the sampling process we stratified financial transaction in the
universe into 10 strata, based on dollar amount of transaction, and statistically selected
a sample, using a 95 percent confidence level and +/-5 percent sampling precision as
follows.

                                                            Number of
         Strata                             Strata Size    Transactions     Sampled
          No.              Strata         (Transactions)     Sampled         Amount
           1      $80,000+                          4                 4     $467,012.00
           2      $30,000 to $80,000               11                11      460,146.62
           3      $15,000 to $30,000               38                 6      106,707.42
           4      $10,000 to $15,000               61                 3       36,600.00
           5      $5,000 to $10,000               143                 8       64,902.75
           6      $2,000 to $5,000                701                18       51,206.88
           7      $1,000 to $2,000              1,036                11       16,300.32
           8      $500 to $1,000                1,043                 5        3,551.12
           9      $100 to $500                  5,090                18        4,334.15
          10      $50 to $100                   1,685                 2          111.07
                                                9,812                86      $1,210,873


In addition, we judgmentally selected 209 transactions totaling $466,176 based
on specific risk factors such as; number of information technology transactions,
employee travel and purchase card transactions. In total, we selected and tested
295 non-personnel transactions of $1,677,049, and personnel transactions of


                                                            Navajo Nation Workforce Development
                                             28                     Report No. 02-13-202-03-355
                                          U.S. Department of Labor – Office of Inspector General



$3,011,847 from NDWD’s total claimed expenditures of $25,202,460. Based on
the results of our testing, we did not project on our audit findings.

To gain an understanding of the training, services, and outcomes in the WIA Adult and
Youth programs, we statistically selected and reviewed files for 61 of 1,916, and 62 of
2,607 individual participants from the adult and youth programs, respectively. We
requested unemployment insurance and wage record data from Arizona, Colorado,
New Mexico, and Utah to verify employment outcomes. Individuals were selected
statistically using a risk assessment that included NDWD’s various performance
attributes. The results of the risk analysis were used to identify 12 performance
attributes for the Adult program and 18 attributes for the Youth program. Both sampled
universes were tested using a 90 percent confidence level and +/- 10 percent sampling
precision. Based on our sample design, the errors may be projected to each attribute in
the audit universe.

Criteria

We used the following criteria to accomplish our audit:

   •	 Workforce Investment Act of 1998 – Section 166 - Native American Programs

   •	 OMB Circular A-87 - Cost Principles for State, Local, And Indian Tribal

      Governments


   •	 20 CFR 667- Administrative Provisions under Title I Of The Workforce

      Investment Act


   •	 Navajo Nation’s Indirect Cost Negotiation Agreement, dated May 18, 2012

   •	 29 CFR Subtitle A Part 97 Uniform Administrative Requirements for Grants and
      Cooperative Agreements to State and Local Governments

   •	 20 CFR 668 Indian And Native American Programs Under Title I Of The

      Workforce Investment Act


   •	 NDWD Policy No. 06-08, Amendment 1 on Occupational Skills Training and
      Basic Education

   •	 NDWD’s One-Year Strategic Plan for PY 2011

   •	 NDWD Policy No. 06-02, WIA Program Eligibility

   •	 NDWD Policy 06-14, Participant Follow Up




                                                          Navajo Nation Workforce Development
                                           29                     Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
              30                    Report No. 02-13-202-03-355
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix C
Acronyms and Abbreviations

 CFR        Code of Federal Regulations

 CRIS       Common Reporting Information System

 DINAP      Division of Indian and Native American Programs

 DOL        Department of Labor

 EAO        Employment Assistance Officer

 EER        Entered Employment Rate

 ETA        Employment and Training Administration

 FPO        Federal Project Officer

 HHS        Department of Health and Human Services

 INAP       Indian and Native American Program

 LMI        Labor Market Information

 NDWD       Navajo Department of Workforce Development

 NEW        Native Employment Works

 NNOOC      Navajo Nation Office of the Comptroller

 OIG        Office of Inspector General

 OMB        Office of Management and Budget

 OST        Occupational Skills Training

 PY         Program Year

 TEGL       Training and Employment Guidance Letter

 WEX        Work Experience

 WIA        Workforce Investment Act




                                                         Navajo Nation Workforce Development
                                           31                    Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
              32                    Report No. 02-13-202-03-355
                                                        U.S. Department of Labor – Office of Inspector General



                                                                                                          Appendix D
ETA Response to Draft Report


     U.S. Department of Labor                   Assistant Secretary for
                                                Employment and Training
                                                Washington, D.C. 202 10



               SEP 2 6 2013

         MEMORANDUM FOR:              ELLIOT P. LEWIS
                                      Assistant Inspector General       /
                                                                 ~ {'('/
         FROM:
                                      Office of Audits

                                      ERIC M. SELEZNO~
                                                               a            VI
                                      Acti ng Assistunt Secretary
                                      Employment and Training Administration

         SUBJECT:                     Response to Oflice of Inspector General' s Audit Navajo Nation
                                      Did Not Adequately Manage Workforce Investment Act Grants and
                                      Could Service More Participants with Available Funds, Audit
                                      Report 02- 13-202-03-355



         On behalf of the U.S. Department of Labor (the Department), Employment and Training
         Administration (ETA), thank you for the opportunity to comment on the Office of the Inspector
         General's (OJG) audit report entitled: Navajo Nati on Did Not Adequately Manage Workforce
         Investment Act Grants and Could Service More Participants with Available Funds. The repott
         offers a thorough review of the Navajo Department of Workforce Development (NDWD), and
         provides valuable recommendations to improve program efficiency and accountability.

         The OlG report recommends that the Acting Assistant Secretary for ETA require NDWD to:

                 1. Implement accounting policies and procedures to properly allocate personnel
                    and non-personnel costs. Fur thenuore, that the Navajo Nation implement and
                    defi ne practices to determine disallowable costs as outlined in the Navajo Nation
                    Office of the Comptroller (NNOOC) Policy Manual .

         ETA's Response to Recommendations 1: Upon receipt ofNDWD' s response, ETA will further
         assess the OIG recommendations. If the findings are correct, ETA will work with NDWD
         program to implement acco unting policies and procedures that demonstrate actual personnel and
         non-personnel costs. ETA will also verify that NDWD finalizes and implements its NNOOC
         Policy Manual.

                 2. Conduct training with staff on accurate data reporting, and participant follow-up
                    procedures.

         ETA's Respo nse to Recommendations 2: Based on quarterly program reports
         submitted, ETA has determined that NDWD's data is accurate. ETA uses the Wage




                                                                            Navajo Nation Workforce Development
                                                          33                        Report No. 02-13-202-03-355
                                              U.S. Department of Labor – Office of Inspector General




Record Interchange System (WRIS) which matches the records ofNDWD participants
with unemployment insurance wage records. ETA believes that this is a more efficient
method of tracking participant outcomes. · Due to limited staffing and resources, ETA
contends that tracking participants after exit often presents a challenge for grantees.

The OIG report further recommends that ETA:

       3. Recover questioned costs of$8.0 million, or obtain appropriate support.

ETA's Response to Recommendations 3: ETA will work with NDWD to determine and
recover any expenses that were incorrectly charged to the ETA grant.

       4. Develop a policy for recapture and reallocation of excess carry-over funds for
           INAP grants.
ETA's Response to Recommendations 4: ETA concurs with this recommendation. ETA will
develop and implement a policy to encourage more timely expenditure of grant resources to
provide services to Native Americans and to recoup tmexpended fhnds as allowable. In
November 2013, ETA will confer with the Native American Employment and Training Advisory
Council on U1e policy and implementation.

       5. Ensure appropriate follow-up is perfom1ed to resolve fmdings and cotTective actions
           after on-site monitoring reviews.

ETA's Response to Recommendations 5: ETA concurs with this recommendation. ETA will
strengthen its follow up efforts for cmTective-action after on-site monitoring reviews aTe
conducted. ETA will ensure the Office of Workforce Investment, Division of Indian and Native
American Program staff receives additional training and support to address this recommendation.
In fact, tbe Division includes fue status of monitoring actions in staff performance plans so that
each FPO is accountable for ensuring timely corrective action by grantees. Further, ETA's
Office of Grants Management provides aruma! Federal Project Ofllcer training.




                                                                  Navajo Nation Workforce Development
                                               34                         Report No. 02-13-202-03-355
                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                       Appendix E
NDWD Response to Draft Report



                    Navajo D epartment ofWorkforce D evelopment
                                          Post Office Box 1889
                                    Window Rock, Arizona 86515
                            Telepho ne: (928) 871-7707    Fax (928) 871-7116




       September 24, 2013                                        Ref. No. 13-NDWD-039

       Elliott P. Lewis
       Assistant Inspector General for Audit
       U.S. Department of Labor
       Office of Inspector General
       200 Constitution Avenue, N.W.
       Room S-5512
       Washington, D.C. 20210

               RE: Audit Report No. 02-13-202-03-355

       Dear Mr. Lewis:

       The written responses to Draft Report #2 of Audit Report No. 02-13-202-03-355, is hereby
       submitted today's date. An on-site exit conference should have been conducted by the audit
       team.

       Due to time and travel constraints, we did not have enough time to complete more on-site work
       with the audit team. We consider all audit reviews as positive feedback to make continuous
       improvements to serve constituents of the Navajo Nation. Audit reports should also portray
       positive accomplishments of programs being reviewed. Success stories also need to be
       broadcasted to the general public and public officials. The Navajo Department of Workforce
       Development has been implementing much-needed employment and training programs for the
       Navajo Nation, for many years.

       The Navajo Department of Workforce Development will be requesting technica l assistance to
       ETA U.S. Department of Labor DINAP to address the findings presented by this audit. I can be
       contacted at telephone number (928) 871-7721 for any additional information.

       Sincerely,



       Ro~~~
       Department Manager III
       Navajo Department of Workforce Development

       Enclosures:
       1. NDWD Audit Response Report
       2. Exhibits A and B




                                                                          Navajo Nation Workforce Development
                                                        35                        Report No. 02-13-202-03-355
                                              U.S. Department of Labor – Office of Inspector General




                              THE NAVAJO NATION
                         DMSION OF HUMAN RESOURCES
                 NAVAJO DEPARTMENT OF WORKFORCE DEVELOPMENT

                  RESPQNSE REPORT TO U.S. DEPARJMENT OF LABOR
                  OFFICE OF INSPECTOR GENERAL- OFFICE OF AUDIT
                              DRAFT AUDIT REPORT #2
                        AUDIT REPORT NO. 02~13~202~03~3S5
                                SEPTEMBER 24. 2013


OVERVIEW:

The Navajo Department of Workforce Development (NDWD), the designated administrative
entity of the Navajo Nation to administer and implement Workforce Investment Act (WIA)
section 166 funds and programs, was audited by a team from the Office of Inspector General,
Office of Audit. The audit reviews and retrieval of documents was very quick and did not
facilitate more on-site discussion of these audit findings and documentation. On-site time was
limited for the audit team and not all copies of documents were provided to the NDWD
Department Manager for the entire audit. The collection and retrieval of documents took
majority of on-site work time of the audit team.

A number of areas in program management and controls were reviewed by the audit team.
The WIA Bear Tracks reporting databases were provided to the auditors. A number of
interviews were conducted; however, not all interviews could be attended by the Department
Manager or key staff. Completing interviews to match period of audit is not appropriate, as
employees will not correctly recall what they were doing or provide detailed information from
years past.

The Navajo Nation's Office of the Controller (OOC) is the designated fiscal agent for the Navajo
Department of Workforce Development and its external-funded programs. The NDWD
Department Manager does not supervise the OOC staff. The actual posting of expenditures and
final charges of all funds Is performed by the Office of the Controller units. The OOC WIA
Accounting Section and OOC Contract Accounting Unit are assigned to complete cash
drawdowns of grant funds. The OOC WIA Accounting Section is currently responsible for
submission of WIA quarterly 9130 reports for WIA programs. The OOC WIA Accounting
Section's Senior Accountant prepares the NDWD employee cost-allocation charges for each
quarter. The charges for appropriate Indirect Costs are posted by OOC WIA Accounting Section
as authorized by their supervisors. The OOC provided access to the Navajo Nation's Ananclal
Management Information System, during the audit.

A complete audit response needs to involve the Navajo Nation Office of the Controller and the
Office of Management and Budget. The Navajo Department of Workforce Development
employees were working on other audits at the time of this audit by the Office of Inspector
General team. This caused daily retrieval of documents and accommodating of all auditors at
one time for a number of months.



                                  NDWD Response - Page 1 of 7




                                                                 Navajo Nation Workforce Development
                                               36                        Report No. 02-13-202-03-355
                                           U.S. Department of Labor – Office of Inspector General




Finding 1- NDWD did not properly manage $8.0 million in INAP grant funds

RESPONSE:

NDWD Department Manager will convey the requirements of current accounting manuals to the
Navajo Nation Controller and OOC Contract Accounting Unit The Office of the Controller
relocated to an alternate worksite due to contamination problems with their building. At the
time of the audit, financial documents needed to be retrieved from the storage bins.

A. NDWD did not have adequate ClOntrols in place to properly allocate personnel
   costs of $6,676,572.

RESPONSE:
The OOC WIA Accounting Section's personnel cost-allocation work sheets were not reviewed
with NDWD Department Manager and HR Senior Office Specialist. NDWD Workforce Centers'
quarterly program statistics are submitted to OOC WIA Accounting section. This method of use
of quarterly program statistics for personnel cost-allocation was based on written
recommendation from OOC supervisors.

The OOC WIA Accounting Section prepares the worksheets for posting of personnel
expenditures every quarter. The OOC WIA Accounting Section's Senior Accountant posts the
personnel expenditures into the FMIS. NDWD Department Manager does not approve these
worksheets or the posting of actual expenditures.

The Department Manager and appropriate staff can review the questioned costs with the OOC
WIA Accounting Section. The NDWD Department Manager needs to be involved in reviews of
quarterly personnel costs expenditures. The cost-allocation of WIA and NEW Program
personnel costs needs a procedure or method to be agreed to with the Navajo Nation OOC,
which needs to be submitted to U.S. Department of Labor and Department of Health and
Human Services for approvals. Personnel cost-allocation procedures have been initiated
previously; however, the approval of the methodology needs to be properly approved by the
funding agencies.

B. NDWD did not have controls in place to properly allocate and charge non­
   personnel costs of $1,295,986.

RESPONSE:

The Table 1: Summary of questioned personnel costs, the following expenditures posted for
personnel costs need to be reviewed with OOC WIA Accounting Section. Personnel Action
Forms need to be compared with the expenditures posted every quarter. The use of clearing
accounts for the personnel cost pool needs to be reviewed with OOC WrA Accounting Section
every quarter.




                                 NDWD Response - Page 2 of 7




                                                               Navajo Nation Workforce Development
                                             37                        Report No. 02-13-202-03-355
                                              U.S. Department of Labor – Office of Inspector General




NDWD cannot provide documentation or provide justifications for the following questioned costs
Included in Table 2: Summary of Questioned Non-Personnel Costs. The Navajo Nation ooc has
to respond to these costs and documents.
1. Unsupported Adjusting Journal Entries: $380,722
2. Prior Period Expenses and late Fees Paid: $23,661
3. Indirect COsts Applicable to Questioned COst: $539,699

NDWD did not obtain ETA approval for capital improvements of $224,277.

RESPONSE:

The amount of $224,277 was used to process procurement for and purchase of the following
equipment and services:

1. RealTime Solutions Professional Service Contract: $ 55,337
   The professional services agreement is for more than one year. Consultation will be made
   with the Federal Projects Officer on approval prior to additional funding. Documents are
   submitted as "Exhibit A" with additional information.

2. Southern Computer Warehouse Inc. Purchase Order: $ 40,532
   The unit price did not exceed the $5,000 threshold and did not require ETA DINAP approval.

3. COW Government Inc. Purchase Order: $128,408
   The unit price did not exceed the $5,000 threshold and did not require ETA DINAP approval.

Navajo Nation's procurement rules and regulations were complied with in the procurement of
these purchases and the Real lime Solutions Professional Services Contract. The contract for
Real lime Solutions includes development of NDWD portal, Web-based Electronic Document
Management, Web-based Document Tracking, Integration and Hosting/Technical Support.

The federal rules and regulations as cited by the auditors at 2 CFR §225 Appendix B - "Selected
Items of Cost'' need to be updated to dearly define computer technology purchases and include
useful language for the continuing expiration of computer hardware and software. NDWD
upgraded its operating system due to non-compatibility problems with old software and
equipment The website needed to be upgraded to be customer-friendly and assist employees
in tracking of important program documents. WIA program funds should be used to support
continuous computer technology upgrades which are very-much needed especially in our field
offices.

In the future, if DOL DINAP needs to review NDWD program budgets for any costs that may
require the approval of the funding agency officials, which can be another layer of approvals to
be Implemented. NDWD provides written justification for WIA funds at the time of grant
application. The Navajo Nation Office of Management and Budget is the oversight office
Internally to review all budgets and enter the approved budgets into the Navajo Nation Rnancial
Management Information System. Technical assistance will be requested from the assigned
Federal Projects Officer on reviews of current agreements.



                                  NDWD Response - Page 3 of 7




                                                                 Navajo Nation Workforce Development
                                               38                        Report No. 02-13-202-03-355
                                             U.S. Department of Labor – Office of Inspector General




Finding 2 - Despite excess carry over funds of $8.5 million, prospective partidpants
are waiting for employment and training services.

RESPONSE:

The five Workforce Centers and sub-offices located in the three states of Arizona, New Mexico
and Utah provide direct services to interested individuals with program information, those that
need only core services, and program services to eligible youth and adults. The program
intake, screening, comprehensive assessment services, development of service strategies,
program enrollments, and follow-up services are provided by the Workforce Centers.

All program budgets are property processed and approved through Navajo Nation Office of
Management and Budget. Every program dollar Is budgeted and approved by required budget
forms and processes before internal authorizations are issued for implementations of
expenditures. 80% of all WIA funding allocations are budgeted for direct services. NDWD
submits WIA Section 166 grant applications and strategic plans in accordance with planning
guidance instructions issued by ETA U.S. Department of Labor.

NDWD has consistently exceeded its carry-over limit since PY 2008.

RESPONSE:

NDWD Department Manager and key staff have communicated with DOL DINAP Chief and
Federal Projects Officers to expedite the Notices of Obligations for funding awards of WIA
funding allocations. Not all Notices of Obligations for each program year are received on a
timely schedule. Notices of Obligations are normally received by e-mail from the ETA Grant
Officers or Federal Projects Officers. The untimely receipt of Notices of Obligations for state
funds has caused late implementation of program activities and expenditures.

20 CFR §667 .107 is used for guidance in the management of WJA funding allocations.

       What is the period ofavailability for expenditure of WIA funds?
       (a) Grant funds expended by States. Funds allotted to States under WIA sections
           127(b) and 132(b) for any program year are available for expenditure by State
           receiving the funds only during that program year and the two succeeding program
           years.
Based on research and notices on file with the NDWD Department Manager, the following
information is provided on the Notices of Obligations for WIA funds and Grant Modifications
received since Program Year 2008:




                                  NDWD Response- Page 4 of 7




                                                                Navajo Nation Workforce Development
                                              39                        Report No. 02-13-202-03-355
                                               U.S. Department of Labor – Office of Inspector General




Program Year 2008: Grant No. AB*17175*08-55-A-4

Mod#    Effective      Date            Funding Allocation
        Date           Received
0       6/10/2008      1/23/2009       $3 077 431 SYSP
1       7/1/2008       1/23/2009       $5 866 074 CSP
2       10/6/2008      10/31/2008      $1 952 912 State Adult Youth PY DW
3       10/9/2008      10/31/2008      $1 504 340 State FY09 Advance Adult &. OW
4       11/7/2008      1/14/2009       Unilateral Mod- 1) Incorporate CSP Pgs 2*39, 2) 20% AC, 3)
                                       Extend PY08 Allotments to 6/30/2009

Program Year 2.009: Grant No. AB:17175-08-55-A-4

Mod#    Effective      Date            Funding Allocation
        Date           Received
5       2/17/2009      3/20/2009       $3,956,397 ARRA SYSP; Period of Performance Issued for
                                       2117/09 to 6/30/11.
7       4/1/2009       7/28/2009       $8 943 504 CSP &. SYSP
8       6/30/2009      8/13/2009       $3 050 738 ARRA State PY Adults, Youth PY DW
9       11/24/2009     12/28/2009      $3,156,371 State FY10 Advance Adult, PY Adult, FY10
                                       Advance OW PY OW PY Youth

Program Year 2010: Grant No. AB-17175-08-55-A-4

Mod#    Effective      Date            Funding Allocation
        Date           Received
10      4 1/2010       Not Available   $3 077 429 SYSP
11      7 1/2010       Not Available   $5 866 074 CSP
12      7 29/2010      1 10 2011       $1 747 869 State PY Adult, PY Youth PY OW
13      8 4/2010       3 14 2011       Notice only
14      7 1/2010       3 14 2011       $1.00 CSP
15      11/16/2010     3 14 2011       $1 507 253 State FYU Advance Adult FY11 Advance OW
                                       NOTE: PY10 Funds authorized 4/1/2010 to 6/30/12

Program Year 2011: Grant No. AB-21609-11*55-A-4

Mod#    Effective      Date            Funding Allocation
        Date           Received
0       4/1/2011       7/6/2011        $2 750 542 SYSP
1       7/1/2011       1nnou            1 381 776 State PY Youth
2       7/1/2011       7/28/2011        5 854 341 CSP
3       7/1/2011       1/6/2012         276 023 State PY Adult &. PY DW
4       11/30/2011     1/5/2012         1 828 642 State FY12 Advance Adult &. FY12 Advance ow


The receipt of Notices of Obligations for state funds is on a delayed basis, not in accordance
with the program year funding cydes. This is causing a "snow-ball" effect whereby carryover of
funds continues Into the next program year. NDWD Department Manager will consult with
assigned Federal Projects Officer to facilitate communication on this reoccurring problem.


                                    NDWD Response - Page 5 of 7




                                                                  Navajo Nation Workforce Development
                                                40                        Report No. 02-13-202-03-355
                                             U.S. Department of Labor – Office of Inspector General




Prospective participants were waiting for employment and training services.

RESPONSE:

The NDWD Administration's Department Manager and unit supervisors disagree with this
statement made by the auditors. There were no listings of pending applicant pools provided by
the Workforce Centers' staffs that were interviewed. The prioritization of program applicants
and decisions for serving the most-in-need and target populations to be served is based on case
management assessments at the field offices.

The need to re-enroll former participants can be justified by Employment Assistance Officers
based on re-assessments and revision of program service strategies. All approvals of new
program enrollments or re-enrollments are the responsibilities of the Workforce Centers'
Program Supervisors. Workforce Centers' Program Supervisors are allowed to request for
reallocation of unspent direct services funds, to accommodate additional pending enrollments.
These requests are addressed with re-allocation of unspent funds by the Administration Office's
Planning and Marketing Unit.

Copies of all NDWD program policies and procedures have been provided to DOL DINAP Federal
Projects Officers. No recommendations have been received to revise policies if there are any
unnecessary limitations or restrictions. INA Grantees are required to ensure program policies
and procedures safeguard integrity of program services and compliance with quality assurance
practices, including data quality for program reporting. The NDWD Department Manager is
required to Insure internal reviews of all policies and procedures before approval and
Implementation.

Finding 3 - NDWD did not achieve some performance goals and provided minimal
follow-up after participants left the program.

BESPQNSE.·

NDWD Management Information System {MIS) Unit is the lead office to compile and certify all
program participant reporting every quarter and meet reporting deadlines for all programs. An
internal corrective action was implemented in January 2011 to centralize all NDWD program
records and data-entries Into the WIA Bear Tracks Reporting Systems. This Is to Improve data­
validation and provide immediate alerts to the field staff for needed record updates and OMB
Common Measures quarterly follow-ups. The MIS Unit generates detailed Bear Tracks Reports
to justify all program statistical reports.
All quarterly program reports are reviewed and certified by Federal Projects Officers. There is
no written notice to NDWD on not meeting planned performance measures or non-compliance
with grant planning worksheets. Services to target populations of school dropouts or those
needing remedial skills training may involve more than one program year; and therefore, not
reported until a complete positive outcome is achieved. NDWD experiences a major need of
addressing basic skills remediation or youth that need to return back to school and achieve a
high school diploma. A skills training online software has been implemented to assist these
populations, with direct consultation by the NDWD Workforce center Counselors.


                                  NDWD Response - Page 6 of 7




                                                                Navajo Nation Workforce Development
                                              41                        Report No. 02-13-202-03-355
                                             U.S. Department of Labor – Office of Inspector General




Documents are submitted as "Exhibit B" to clearly demonstrate the Youth Program Attainments
for the period of April 1, 2011 to March 31, 2012. The attainment of two or more goals for
each participant is significantly achieved with check marks for the listing of youth goals. The
audit team did not have time to review the program participant reports on-site or have the
missing follow-up documents addressed prior to completion of the audit work.

NDWD staffs have attended training to implement the WIA Comprehensive Services OMB
Common Measures, at WIA regional and national conferences. NDWD staff meetings have
provided training and informational hand-outs on an annual basis to all employees. The NDWD
Department Manager and the Workforce centers' Program Supervisors can address the program
follow-up requirements with inclusion of follow-up work activities scheduled for the Employment
Assistance Officers on a monthly basis.

NDWD staffs have not been trained on use of the Kansas Department of Commerce's Common
Reporting Information System (CRIS) or use of state UI wage databases. If Section 166
grantees are able to have access to these state databases, the information needs to be
provided in a written guidance from U.S. Department of Labor DINAP. Actual names of
program participants reported in the UI wage databases are not reported back to NDWD.




                                  NDWD Response - Page 7 of 7




                                                                Navajo Nation Workforce Development
                                              42                        Report No. 02-13-202-03-355
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix F
Acknowledgements

Key contributors to this report were: Mark Schwartz, Cardelia Tsoi, Susan Rosenblum,
Eliacim Nieves-Perez, Reza Noorani, Andrew Loomis, Mary Lou Casazza, and Ajit
Buttar.




                                                        Navajo Nation Workforce Development
                                          43                    Report No. 02-13-202-03-355
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                            Navajo Nation Workforce Development
              44                    Report No. 02-13-202-03-355
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
